IN THE SUPREME COURT OF THE UNITED STATES
No.

MICHAEL A. WILLNER AND
MARGUERITE EVANS WILLNER
Petitioners,
v.
JAMES DIMON, et al„
Respondents.

CERTIFICATE OF SERVICE

I, Michael A. Willner, petitioner pro se, hereby certify that on this 15th day of
July 2019,1 caused three copies of the Brief of Michael A. Willner and Marguerite
Evans Willner, Petitioners to be served by first class mail on the following counsel:

J. SCOTT WATSON
Counsel for Respondent
FEDERAL DEPOSIT INSURANCE
CORPORATION
3501 Fairfax Drive, D-7144
Arlington, VA 22226
(703) 562-2384
jamwatson@fdic.gov
MARY C. ZINSNER
Troutman Sanders, LLP
Counsel for Respondents
JAMES DIMON
JPMORGAN CHASE BAND, N.A.
401 9th Street NW, Suite 1000
Washington, DC 20004

(202) 274-1921
mary.zinsner@troutman.com
RAYMOND GERARD MULLADY, JR.
Nelson Mullins Riley & Scarborough LLP
Counsel for Appellees
SELECT PORTFOLIO, INC.
U.S. BANK, N.A. AS TRUSTE
101 Constitution Avenue, NW, Suite 900
Washington, DC 20001
(202) 689-2969
ray.mullady@nelsonmullins.com
SOLICITOR GENERAL OF THE UNITED STATES
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
I further certify that all parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 15, 2019.

Xl^> /d/c&nAMichael A. Willner
11521 Potomac Road
Lorton, VA 22079
(703) 489-0913
mike willner l@gmail.com

